           U.S. Department of
                                                 Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   INFORMATION: ARRA Advisory –                              Date:    June 22, 2009
           Sampling of Improper Payments in
           Major DOT Grants Programs
           Department of Transportation
           Advisory No. AA-2009-002

  From:    Calvin L. Scovel III                                   Reply to
                                                                  Attn. of:   J-1
           Inspector General

    To:    The Secretary
           Deputy Secretary

           Attached is an ARRA Advisory on sampling of improper payments in major DOT
           grants programs. Consistent with ARRA and OMB guidance, Inspectors General are
           expected to promptly report potential management and funding risks that could
           impact the effective and efficient use of ARRA funds. We are not requesting a formal
           response to this advisory as the key issues and proposed actions included in it were
           briefed to cognizant Departmental officials and audit liaisons in advance of issuance.

           We will post the advisory on our Web site (www.oig.dot.gov/recovery) and
           www.Recovery.gov. If you have any questions, please call me at (202) 366-1959 or
           Rebecca C. Leng, Assistant Inspector General for Financial and Information
           Technology Audits, at (202) 366-1407.


           cc: Acting Assistant Secretary for Budget and Programs/Chief Financial Officer
               Federal Aviation Administrator
               Acting Federal Highway Administrator
               Federal Transit Administrator
               Martin Gertel, M-1

                                                     #
AA-2009-002                                                                                     JUNE 22, 2009


                 U.S. DEPARTMENT OF TRANSPORTATION
                 Office of Inspector General


                       ARRA ADVISORY
                 American Recovery and Reinvestment Act

                Sampling of Improper Payments in
                  Major DOT Grants Programs
Key Issue
The sampling for improper payments made to grant recipients in fiscal year (FY) 2008 was not credible due
to an extremely small sample size and the lack of randomness in sample selection. Consequently, the test
results do not accurately represent the seriousness and extent of the Department of Transportation’s (DOT)
improper payments. Taxpayers deserve assurance that Federal dollars, including new funding disbursed
under the American Recovery and Reinvestment Act of 2009 (ARRA), are being spent responsibly.

Proposed Actions for Change
The Department needs to increase its oversight of the contractor’s sampling, including expanding the sample
size, to develop a more reliable test for improper payments. These actions are needed now because DOT is
about to award a new contract to develop the sampling and testing of FY 2009 improper payments. Such
oversight is critical to mitigate potential funding risks for the Department, considering that 77 percent
($37 billion out of $48 billion) of ARRA funds will be dispensed through major grants programs.


Background
The purpose of the Improper Payments Information Act of 2002 (IPIA) was to enhance the accuracy and
integrity of Federal payments. To achieve this, it provided a framework for agencies to use in testing for
improper payments, identifying their causes, and implementing solutions to reducing them. Further, ARRA
requires agencies to exercise stringent oversight of how their funds are used, and the Office of Management
and Budget (OMB)—in its guidance on ARRA implementation—emphasizes the need for Federal agencies to
implement risk-mitigation actions to minimize the incidence of improper payments.

OMB Circular A–123, Appendix C (August 2006) clarified Government-wide requirements for compliance
with IPIA. Specifically, agencies must (1) review all programs and activities and identify those susceptible to
significant erroneous payments, (2) obtain a statistically valid estimate of the annual amount of improper
payments in programs and activities, (3) implement a plan to reduce erroneous payments, and (4) report
estimates of the annual amount of improper payments in programs and activities and progress in reducing
improper payments. OMB defines improper payments as those that should not have been made, including
those made to an ineligible recipient, for an ineligible service, duplicate payments, those made for services not
received, those in the incorrect amount, and those for which documentation to determine propriety is
insufficient or lacking.

We are issuing these advisories to promptly report potential management and funding risks
consistent with ARRA and OMB guidance.
       DOT
       OIG

                     Sampling of Improper Payments in
                       Major DOT Grants Programs
The Department has determined that four of its major grants programs—the Federal-aid Highway Program,
the Federal Transit Administration (FTA) Formula Grants Program, the FTA Capital Investment Grants
Program, and the Federal Aviation Administration (FAA) Airport Improvement Program (AIP)—are at risk
and susceptible to improper payments, and therefore need to be tested annually. These programs account for
77 percent of DOT ARRA funds.

What We Found
In developing samples for FY 2008 improper payment testing in AIP, the contractor selected an extremely
small sample and failed to preserve randomness in that selection. This reduced the chances of finding
improper payments, causing misleading results and likely underestimation of improper payments made.

From March 1, 2007 to February 29, 2008, FAA made about 28,000 reimbursement payments to AIP
sponsors for some 5 million purchases with a total value of $4.4 billion. The contractor sampled 63 line items
(with a total value of $15.4 million); these represented only 0.3 percent of FAA outlays to AIP sponsors. We
likewise noticed small sample selections in other major DOT grants programs, such as the Federal-aid
Highway Program: its sample had a total value of $20 million, representing just 0.06 percent of the total
outlay of $32 billion. While the contractor’s small sample meets minimum OMB requirements, OMB’s own
guidance calls for agencies’ using larger samples: “Agencies are encouraged to increase samples above the
minimum to achieve greater precision in their estimates.” For example, the Agency for International
Development sampled 31 percent of its cash outlays. DOT needs to expand the sample size to instill greater
confidence in its sample projection against the universe.

Further, on several occasions, the contractor’s sample-selection for AIP ignored the essential statistical-
sampling principle of preserving randomness. For example, the contractor was to select 30 invoices from 30
randomly-selected payment batches. While 30 invoices were selected, they were associated with only 27
payment batches. The contractor did not disclose this deviation to the Department and did not respond to
our request for justification. The arbitrary substitution of samples marked a violation of sampling principles
and resulted in a sample unrepresentative of the universe. DOT needs to increase oversight of contractor
sampling work to ensure the integrity of sample selection.

Future OIG-related Activities
The Department is about to award a new contract to develop its sampling methodology for determining
FY 2009 improper payments in the AIP and other high-risk departmental grants programs. To help ensure
the integrity of upcoming sample testing, we plan to review the methodology for sample selection and size
determination under the new contract, along with departmental actions taken in response to this advisory.
Therefore, we are not issuing an audit report on last year’s methodology, or requesting a formal response.
This advisory will be posted on our Web site (www.oig.dot.gov) and www.Recovery.gov.

 For information on this advisory, please contact Rebecca C. Leng, Assistant Inspector General
 for Financial and Information Technology Audits, at (202) 366-1407.



                                                      2
